Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  TEMPORARY ASSISTANCE
    FOR NEEDY FAMILIES

   Educating Clients about Sanctions




                   JUNE GIBBS BROWN
                    Inspector General

                      OCTOBER 1999
                      OEI-09-98-00291
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION IX                                                        HEADQUARTERS

Steven Zerebecki, Lead Analyst                                   Linda Hall, Program Specialist
Scott Hutchison, Program Analyst                                 Alan Levine, Program Specialist
Lori Stickel, Program Analyst




     To obtain copies of this report, please call the San Francisco Regional Office at (415)437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                      SUMMARY

PURPOSE

         To determine how States inform clients about sanction policies under the Temporary
         Assistance for Needy Families (TANF) program.


BACKGROUND

         In 1996, Congress significantly overhauled the Federal welfare system with the passage of
         the Personal Responsibility and Work Opportunity Reconciliation Act (PRWORA, P.L.
         104-193), eliminating Aid to Families with Dependent Children (AFDC). The TANF
         program replaced AFDC with State block grants, giving States more authority to design
         programs that move clients from welfare to self-sustaining employment. Except where
         expressly provided under PRWORA, the Federal Government may not prescribe State
         spending on TANF.

         Clients who fail to comply with program rules and requirements face sanctions, including
         cash assistance reductions ranging from $25 to lifetime ineligibility. The TANF law
         provides States flexibility to define client sanctions and penalties, as well as “good cause”
         reasons for work exemptions. The TANF law requires States to provide clients the option
         to appeal sanction decisions and to have a fair hearings system to resolve the appeal.
         However, States decide the specifics of their appeals and fair hearings policies and
         processes.

         States also can decide how to inform clients of TANF program policies and procedures.
         States can conduct orientation sessions, provide orientation packets, or instruct
         caseworkers to inform clients about TANF during screenings and interviews.

         We purposefully selected an 8-State sample from which we visited a total of 26 TANF
         offices in both urban and rural areas. At most sites, we conducted separate focus groups
         with TANF caseworkers and clients in addition to meeting individually with TANF office
         directors and selected TANF caseworkers who assisted us with limited case-file reviews of
         recently sanctioned clients. We also collected and reviewed State and county policies,
         publications, and notices from each TANF office. In each of the sample States, we
         interviewed staff from at least one private client advocacy group.

         The methods we used during this study pose some distinct advantages and disadvantages
         for the scope of our findings. The purposeful sample allowed us to examine sanction


TANF — Educating Clients about Sanctions           1                                     OEI-09-98-00291
         implementation in States with widely varying attributes. We also gained a thorough
         understanding of our respondents’ relationships with and attitude towards sanctions. Our
         methodology precludes us, however, from commenting on the extent to which our
         findings and observations are representative nationwide. We also cannot evaluate direct
         outcomes of sanction policies, procedures, and practices on clients and the program.


FINDINGS

TANF offices explain sanctions to clients repeatedly, using diverse methods

         Some TANF offices communicate sanction information to clients at multiple times and
         with a variety of media. For example, offices conduct orientation classes, show instructive
         videos, and issue packets of information. Caseworkers frequently discuss sanctions with
         clients throughout the process.

Orientation materials commonly lack information about the amount of the
sanction and the definition of good cause

         More than two-thirds of TANF offices do not provide clear and complete information
         about the amount of sanctions and the definition of “good cause” exemptions from work
         requirements.

Most States describe other vital information about sanctions completely and
present it in a logical format

         The reasons for and durations of sanctions and client appeal rights are explained clearly in
         most written material provided to clients. About half of the TANF orientation materials
         present information in a well-labeled packet and in a logical format.

TANF clients do not fully understand sanctions and, according to caseworkers,
are not concerned about sanctions until they are imposed

         Clients rarely had more than a superficial understanding of sanctions. Regardless of the
         State’s sanctions policy, clients often reported that they would be “cut off” if they violated
         program rules. In addition, caseworkers told us that a sanction is not often a concern to
         clients until it is imposed.




TANF — Educating Clients about Sanctions           2                                      OEI-09-98-00291
RECOMMENDATION

         We recommend that the Administration for Children and Families encourage States to
         provide complete, correct, and understandable information to clients on: the causes of
         sanctions; the amounts of sanctions; the duration of sanctions; “good cause” reasons for
         work exemptions; and client appeal, fair hearing, and, if applicable, conciliation rights.


AGENCY RESPONSE

         We received comments on the draft report from the Administration for Children and
         Families. The agency concurred with our recommendation and stated that it is committed
         to working with States to improve State sanction information. As an initial step, it will
         provide States with examples of effective sanction information and facilitate networking
         among States interested in improving their sanction information. We made changes to the
         report based on the technical comments we received from the agency and clarified that we
         do not project our findings beyond the sample sites.



             This is one of three OIG reports on how States administer client sanctions
             under TANF. One companion report, Temporary Assistance for Needy
             Families: Improving the Effectiveness and Efficiency of Client Sanctions
             (OEI-09-98-00290), provides a broad overview of State administration of
             client sanctions. The other, Temporary Assistance for Needy Families:
             Improving Client Sanction Notices (OEI-09-98-00292), reviews State
             methods for informing clients of sanction decisions via written notices.




TANF — Educating Clients about Sanctions          3                                       OEI-09-98-00291
                          TABLE                         OF               CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                Client sanctions under TANF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                “Good Cause” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                Appeals and fair hearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                Informing clients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Explaining sanctions to clients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Vital information omitted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Clients lack of understanding and concern . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES

A:	       Orientation information with clear, complete, and concise information on sanctions, fair

          hearings, and good cause . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


B:        Orientation information containing thorough appeal rights information . . . . . . . . . . . . . 19





TANF — Educating Clients about Sanctions                             4                                                     OEI-09-98-00291
                                    INTRODUCTION

PURPOSE

         To determine how States inform clients about sanction policies under the Temporary
         Assistance for Needy Families (TANF) program.



BACKGROUND

         In 1996, Congress significantly overhauled the Federal welfare system with the Personal
         Responsibility and Work Opportunity Reconciliation Act (PRWORA, P.L. 104-193),
         ending federally-funded welfare entitlements. When President Clinton signed the bill into
         law in August 1996, Aid to Families with Dependent Children (AFDC) was replaced with
         TANF, a block grant program that gives States more authority and flexibility to design
         programs that move clients from welfare to self-sustaining employment. Except where
         expressly provided for under PRWORA, the Federal Government may not prescribe State
         spending of TANF block grant funds.

Client Sanctions under TANF

         Clients who do not follow program rules and requirements face “sanctions,” including
         cash assistance reductions ranging from $25 to lifetime ineligibility. States have increased
         authority to define sanctionable offenses and determine specific penalties. Federal TANF
         law directs States to sanction clients for not cooperating with child support enforcement
         efforts and/or not participating in work activities. States also may sanction clients for
         testing positive for controlled substances, not following an “Individual Responsibility
         Plan,” refusing to work towards achieving a high-school diploma or the equivalent, failing
         to attend school, and/or failing to attend required meetings or to attend other program
         activities (e.g., training sessions).

         The law mandates a minimum benefit reduction for some sanctions (e.g., a 25 percent cash
         assistance reduction for failure to participate in child support enforcement efforts), but
         States can set a maximum sanction, ranging from a pro rata sanction to a “full family”
         sanction that eliminates all cash assistance to the entire family. States also may increase
         sanctions for clients who repeatedly fail to comply with the program rules and
         requirements. For example, some States incrementally decrease cash assistance to families
         each time they fail to comply, sometimes leading to the loss of the entire cash grant.




TANF — Educating Clients about Sanctions          5                                      OEI-09-98-00291
         The TANF law also allows States flexibility in determining the duration of sanctions.
         States must, at a minimum, reduce the cash grant pro rata for each month the client
         receives aid and is not in compliance. States can set maximum sanction duration. Some
         States increase the duration of the sanction each time the client does not comply, which
         sometimes results in lifetime ineligibility.

“Good Cause”

         If a TANF client refuses to participate in work activities or comply with other TANF
         program requirements, the State must sanction the client, except where “good cause” or
         other exceptions apply. The TANF law directs that States exempt from work
         requirements single custodial parents of children under the age of six who cannot obtain
         child care. States also can define “good cause” and other exceptions as they deem
         appropriate. Although State definitions vary, they commonly allow “good cause” for: lack
         of transportation, victims of domestic violence, lack of suitable employment, and illness of
         the participant.

Appeals and Fair Hearings

         States are required to provide clients the option to appeal sanctions and must have a fair
         hearings system to resolve the appeal. State appeals and fair hearings policies and
         procedures may vary since TANF requires only that States certify that they have a fair
         hearings process in place and describe it.

Informing Clients of Program Rules

         States decide how and when to inform clients of their sanction policy, the conciliation
         process, how to restore benefits once sanctioned, and the appeals and fair hearings
         process. States can, for example, conduct individual or group orientation sessions or
         provide all clients with packets of written materials including policy information.




TANF — Educating Clients about Sanctions          6                                     OEI-09-98-00291
METHODOLOGY

         We purposefully selected an eight-State sample based on:

                             <        percent reduction in TANF recipient populations,1
                             <        State policies on TANF client sanctions (e.g., full-family versus
                                      partial grant reduction),
                             <        percent of national TANF recipient population, and
                             <        geographic diversity

         Since our sample was purposeful, we do not project our findings. We visited offices in the
         following States: California, Florida, Idaho, Michigan, Minnesota, New York, Ohio, and
         Texas. In each State, we visited at least two offices — an urban and rural office. We
         conducted preinspection research in July and August 1998 in Maryland and Nevada prior
         to conducting our formal fieldwork which we concluded in November 1998.

         In total, we visited 26 TANF offices in 22 counties. In each office, we conducted a focus
         group with caseworkers. The focus groups varied in size from 2 to15 workers. We also
         interviewed some caseworkers individually and conducted limited case-file reviews of
         recently sanctioned TANF clients. We interviewed the director of the TANF office in
         each county and clients in 19 of the 26 offices. The client interviews ranged in size from a
         single client to a group of more than 20. The clients were selected either in advance by
         the TANF office or while they were present for other business during our visit. We also
         collected and reviewed State and county policies, publications, and notices from each
         TANF office.

         In each State visited, we interviewed staff from at least one client advocacy organization.
         In total, we conducted 9 interviews with 15 advocacy groups.

         The methods we used during this study pose some distinct advantages and disadvantages
         for the scope of our findings. The purposeful sample allowed us to examine sanction
         implementation in States with widely varying attributes. We also gained a thorough
         understanding of our respondents’ relationships with and attitudes towards sanctions. Our
         methodology precludes us, however, from commenting on the extent to which our
         findings and observations are representative nationwide. We also cannot evaluate direct
         outcomes of sanction policies, procedures, and practices on clients and the program.


         1
          The primary factor for State selection was TANF recipient population reduction rates since TANF was
implemented. Based on the reduction rates, States were stratified into four groups, from which we chose two
States from each group. While we would have preferred to use State sanction rates, reliable client sanction data
for all
50 States did not exist at the time we selected the sample. We felt that caseload reduction rates were the most
reasonable proxy for sanction rates in selecting this purposeful sample.

TANF — Educating Clients about Sanctions                7                                           OEI-09-98-00291
             This is one of three OIG reports on how States administer client sanctions
             under TANF. One companion report, Temporary Assistance for Needy
             Families: Improving the Effectiveness and Efficiency of Client Sanctions
             (OEI-09-98-00290), provides a broad overview of State administration of
             client sanctions. The other, Temporary Assistance for Needy Families:
             Improving Client Sanction Notices (OEI-09-98-00292), reviews State
             methods for informing clients of sanction decisions via written notices.




TANF — Educating Clients about Sanctions          8                                       OEI-09-98-00291
                                           FINDINGS

TANF offices explain sanctions to clients repeatedly, using
diverse methods
         Some TANF offices use multiple media to explain sanction policies to clients. They
         conduct thorough orientation classes, show instructive videos in the waiting rooms, host
         on-site legal representatives, and issue well-labeled handouts and pamphlets. The best
         offices have bi-lingual caseworkers, screeners, and translators to explain TANF policies
         and to answer client questions.

         Most caseworkers said they frequently discuss sanctions with clients. They tell clients
         about sanctions during the screening process, at the orientation session, during one-on-one
         interviews and appointments, when reviewing the rights and responsibilities form, and
         while setting up individual responsibility plans. A few caseworkers said they inform
         clients about sanctions only at a later time, usually when a client is not cooperating or is in
         the initial stages of the sanction process.



More than two-thirds of TANF offices omit vital information
about sanctions from their written client material
         In addition to providing clients with sanction information orally during interviews and

         group meetings, all TANF offices provide written materials that explain most facets of the

         State’s sanction policy. Vital information about the sanction policies include:


         <         causes for sanctions,

         <         amounts of sanctions2,

         <         durations of sanctions,

         <         “good cause” reasons for work exemptions, and 

         <         client appeal rights.


         Only 31 percent of TANF offices provide clear and complete information on all of the

         above areas of vital information.




         2
         By ‘amounts of sanctions,’ we mean either the formula used to calculate the benefit reduction or a fixed
monetary penalty. A 25 percent cash assistance reduction is an example of the former, and a set $75 penalty is an
example of the latter.


TANF — Educating Clients about Sanctions                9                                          OEI-09-98-00291
Orientation materials commonly lack information about the amount of the
sanction and the definition of good cause

         Approximately half of the TANF offices do not provide clients with complete, correct, and
         precise information on the amount of sanctions. For example, one orientation flyer read,
         “If you refuse to participate in a [job search program] without good cause, you may lose
         all or part of your public assistance benefits until you agree to cooperate or for a period up
         to six months.” That State’s sanction policy does not include a full family sanction,
         although the passage implies that it does. Although the minimum duration of the sanction
         in that State is indeed six months for the third instance of noncompliance, clients can be
         sanctioned indefinitely if they persist in not complying. The passage implies that the
         sanction lasts six months, at most. Nowhere else in the State’s orientation materials are
         sanctions explained in any more detail than the above passage. In addition, the State’s
         orientation material addressing sanctions for not cooperating with child support
         enforcement includes only the following passage, “Non-cooperation without good cause
         could result in the termination of [cash assistance] benefits.” Again, the material
         incorrectly implies that the State has a full-family sanction.

         Orientation materials frequently lack definitive information about “good cause” reasons
         for not complying with work requirements. Many State and county materials use the
         phrase “good cause” to denote the legitimate reasons for exclusion from work
         requirements, but often do not actually define the term or give concrete examples. For
         instance, one office’s material reads, “You have the right to claim good cause for not
         complying with a program benefit...,” but nowhere on the document is there a definition or
         examples of what constitutes “good cause.”

Most States describe all other vital information about sanctions completely and
present it in a logical format

         Client orientation materials contain clear and complete information about most sanction
         details. Approximately two-thirds of the TANF orientation materials we reviewed
         (1) include specific examples of reasons why a client may be sanctioned, (2) list the
         duration of sanctions, and (3) explain client appeal rights (see appendix A). Some States
         successfully use their rights and responsibilities document to outline program
         requirements, compulsory activities, and potential consequences (i.e., namely sanctions).

         Some TANF offices effectively present information about the reasons for and the duration
         of sanctions in the orientation packets, on the TANF application, and in individual
         responsibility plans. The most informative documents explicitly describe each of the
         reasons for which a client may be sanctioned. For example, an excerpt from one county’s
         orientation packet reads, “...[if you] refuse to agree to a welfare to work plan, or fail to
         show proof of satisfactory progress in your activity, or quit or refuse a job, then the


TANF — Educating Clients about Sanctions          10                                      OEI-09-98-00291
         county can sanction you.” Materials often specify the duration of each level of sanction

         (See appendix A for an example).

         Most TANF offices provide clients with clear and complete information about client

         appeal rights in rights and responsibilities documents, on the TANF applications, and in

         booklets about TANF rules and policies. Figure 1 illustrates one of the best documents

         we reviewed. In it, the terms “conciliation” and “fair hearing” are defined explicitly and

         the processes and policies for both forms of dispute resolution are explained. (See

         appendix B for the complete document.) The document also advises clients in seven

         languages that the information contained is important. 


                Figure 1 Appeal rights information excerpt




                                                                                    Seven languages
                                                                                    are used to
                                                                                    explain the
                                                                                    form’s
                                                                                    importance.




 “Conciliation”
 and “fair




                                                                                    Instructions on
                                                                                    how to request a
                                                                                    conciliation
                                                                                    conference and
                                                                                    fair hearing are
 Phone numbers
 for free legal aid
 are provided.



TANF — Educating Clients about Sanctions          11                                      OEI-09-98-00291
         Orientation materials often present information in a logical format. About half of the
         orientation materials we reviewed include a separate packet that clearly distinguishes
         TANF sanction information from Medicaid or food stamps. The language is clear and the
         terminology is well-defined (see appendix A). The TANF offices often effectively
         emphasize sanction information by using large, bold fonts, printing the material on brightly
         colored paper, or repeating the information in several places throughout the orientation
         packet.

Clients and advocates contend that TANF offices provide limited information
about sanctions

         Clients commonly reported that they receive insufficient sanction information, and only in
         written form. Almost half said they learned about sanctions through either orientation
         packets or written documents received in the mail. Some explained that they only acquire
         information about sanctions from fliers and other clients. Few clients said that they had
         received sanction information in both written and oral forms (e.g., from caseworkers or
         TANF office staff).

         Several advocacy groups explained that clients often are not well-informed about sanction
         policies. The information provided to clients is frequently neither clear nor complete. One
         advocacy group explained, “The only thing clients know is what’s in the guidebook. The
         guidebook tells them that the grant will be reduced, but it doesn’t tell them by how much.”
         They also criticize TANF offices for failing to educate clients who do not speak English or
         who are illiterate. One advocacy group claimed, “If you can’t read at all or if you speak a
         different language, then you’re sanctioned.”


TANF clients do not fully understand sanctions and,
according to caseworkers, are not concerned about
sanctions until they are imposed

Clients rarely had more than a superficial knowledge of sanctions

         Clients in almost half of the focus groups did not completely understand the sanction
         policies imposed by their TANF offices. In eight of the nineteen focus groups, clients
         were unclear about the amounts, durations, causes, and remedies of sanctions under
         TANF. Clients said they would most likely be “cut off” if they failed to participate in the
         TANF program. This was a common response, even in States and counties in which
         TANF offices impose partial sanctions. Some clients had more incorrect information
         about sanctions. For example, they reported that “after awhile” the sanction affects
         Medicaid, while in actuality the State’s sanction policy allows only for the removal of the



TANF — Educating Clients about Sanctions          12                                     OEI-09-98-00291
         adult from the TANF cash assistance. A few clients knew most or all of the details about
         client sanctions under TANF.

         Caseworkers in a quarter of the focus groups confirmed that clients often do not
         comprehend sanction information. Although caseworkers repeatedly inform clients about
         sanctions, many clients still do not understand. Some clients often act like they don’t care
         about sanctions when, in reality, they do not understand the information because of
         language barriers.

A sanction often is not a concern to clients until it is imposed, according to
caseworkers

         When a majority of caseworkers tell clients about sanctions, they are faced with clients
         who simply “don’t care.” While many caseworkers said that clients “don’t pay attention”
         to the sanction details, other caseworkers echoed the sentiment that, “Some clients say,
         ‘Go ahead. You can’t sanction my kids.’” Clients also can become angry when they are
         first faced with the new sanction policies during orientation, according to some
         caseworkers. “Ninety percent of the clients I see to make the personal responsibility
         contract are mad. It’s a real escalated, emotional situation,” one caseworker explained.

         Clients more frequently pay attention or react once they are sanctioned. Most
         caseworkers reported that although clients will react when sanctions are imposed, their
         reactions are mixed. Some clients call immediately after the sanction has been imposed,
         while others are never heard from again. Most caseworkers agreed, however, that “the
         first sanction gets [clients’] attention.”




TANF — Educating Clients about Sanctions          13                                     OEI-09-98-00291
                              RECOMMENDATION

         The Office of Inspector General recognizes that the TANF block grant program gives
         States broad authority to design programs that quickly move welfare clients to self-
         sustaining employment. There is a role for the Administration for Children and Families
         (ACF), however, in providing guidance to States.

         We recommend that ACF encourage States to provide complete, correct, and
         understandable information to clients on:
                <     the causes of sanctions,
                <     the amounts of sanctions,
                <     the duration of sanctions,
                <     “good cause” reasons for work exemptions, and
                <     client appeal, fair hearing, and, if applicable, conciliation rights.


AGENCY RESPONSE

         We received comments on the draft report from the Administration for Children and
         Families. The agency concurred with our recommendation and stated that it is committed
         to working with States to improve State sanction information. As an initial step, it will
         provide States with examples of effective sanction information and facilitate networking
         among States interested in improving their sanction information. We made changes to the
         report based on the technical comments we received from the agency and clarified that we
         do not project our findings beyond the sample sites.




TANF — Educating Clients about Sanctions         14                                   OEI-09-98-00291
                                                APPENDIX A

  ORIENTATION INFORMATION WITH CLEAR, COMPLETE

      AND CONCISE INFORMATION ON SANCTIONS, 

          FAIR HEARINGS, AND GOOD CAUSE





TANF — Educating Clients about Sanctions   15      OEI-09-98-00291
TANF — Educating Clients about Sanctions   16   OEI-09-98-00291
TANF — Educating Clients about Sanctions   17   OEI-09-98-00291
TANF — Educating Clients about Sanctions   18   OEI-09-98-00291
                                                APPENDIX B

               ORIENTATION INFORMATION CONTAINING

               THOROUGH APPEAL RIGHTS INFORMATION





TANF — Educating Clients about Sanctions   19       OEI-09-98-00291
TANF — Educating Clients about Sanctions   20   OEI-09-98-00291
TANF — Educating Clients about Sanctions   21   OEI-09-98-00291
